Report No. D-2009-079         May 7, 2009




   Controls Over the Department of the Navy
     Military Payroll Disbursed in Support of
            the Global War on Terror
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ADSN                          Accounting and Disbursing Station Number
ASN(FM&C)                     Assistant Secretary of the Navy (Financial Management
                                  and Comptroller)
CNIC                          Commander, Navy Installations Command
CZ                            Combat Zone
CZTE                          Combat Zone Tax Exclusion
FMR                           Financial Management Regulation
FSA                           Family Separation Allowance
GWOT                          Global War on Terror
HFP/IDP                       Hostile Fire Pay/Imminent Danger Pay
PSD                           Personnel Support Detachment
SSN                           Social Security Number
                                              GENERAL
                                DEPARTMENT OF DEFEf\JSE
                                 400 ARrvlY NAVY DRIVE
                            ARLI~JGTON, VIRGINIA 22202-4704




                                                                              May 7,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  DOD CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                  SERVICE
               COMMANDER, NAVY INSTALLATIONS COMMAND
               NAVAL INSPECTOR GENERAL

SUBJECT: Controls Over the Department of the Navy Military Payron Disbursed in
         Support ofthe Global War on Terror (Report No. D2009-079)


Weare providing this report for your information and use. We considered management
comments on a draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, we do not require any
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.




                                             f~ a.l!!~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D2009-079 (Project No. D2008-D000FC-0189.000)                            May 7, 2009

              Results in Brief: Controls Over the
              Department of the Navy Military Payroll
              Disbursed in Support of the Global War
              on Terror
                                                       We identified a material internal control
What We Did                                            weakness for the Commander, Navy
From January 2007 through July 2008, the               Installations Command (CNIC). CNIC did not
Department of the Navy disbursed about                 issue guidance, provide training, or conduct
$242 million in Hostile Fire Pay/Imminent              quality assurance reviews to ensure Norfolk area
Danger Pay and Family Separation Allowance             disbursing center personnel maintained
entitlements to support the Global War on              supporting documentation according to retention
Terror (GWOT). Our objective was to                    requirements. Thus, they cannot prevent or
determine whether the Navy disbursed military          detect fraud or improper payments.
payroll in support of the GWOT in accordance
with laws and regulations. Specifically, we            What We Recommend
determined whether the Navy maintained                 We recommend that CNIC:
adequate support for payments related to                  Establish and implement standard
deployments to an active combat zone (CZ).                   operating procedures for the types of
                                                             documentation that disbursing center
What We Found                                                personnel should accept and maintain to
Norfolk area disbursing center personnel did not             support CZ entitlements.
maintain supporting documentation for CZ                  Provide formal training to Navy
entitlements according to record retention                   personnel processing military pay to
requirements. They also did not always obtain                ensure consistent and proper
adequate supporting documentation to                         implementation of standard operating
substantiate CZ entitlements. We reviewed the                procedures.
adequacy of the support for the CZ entitlements           Perform periodic quality assurance
received by 338 Navy military members. The                   reviews to ensure that disbursing center
disbursing centers provided complete support                 personnel comply with retention
for the entitlements of 73 members. However,                 requirements in the DoD Financial
they only provided partial support for the                   Management Regulation.
entitlements of 107 members and no support for
the entitlements of 158 members. Therefore,            Management Comments and
the Navy could not substantiate whether at least       Our Response
158 of 338 Navy military members received
                                                       The Navy agreed with the recommendations in the
proper CZ entitlements during deployments
                                                       report and the comments were responsive. They
supporting the Global War on Terror. This
                                                       initiated actions to generate standard operating
could cause financial hardship on Navy
                                                       procedures to address CZ entitlement supporting
warfighters and their families. In addition, the
                                                       documentation and retention requirements. See
lack of proper supporting documentation
                                                       the Management Comments section for the full
adversely affects the Navy’s ability to detect
                                                       text of the comments. See the Recommendations
fraud or improper payments.
                                                       Table on the back of the page.

                                                   i
Report No. D2009-079 (Project No. D2008-D000FC-0189.000)                 May 7, 2009



      Recommendations Table
      Management                   Recommendations         No Additional Comments
                                   Requiring Comment       Required
      Commander, Navy                                      1., 2., and 3.
      Installations Command




                                             ii
Table of Contents

Results in Brief                                                    i

Introduction                                                       1

       Objectives                                                  1
       Background                                                  1
       Review of Internal Controls                                 2


Finding. Supporting Documentation for Entitlements in Support      3
          of the Global War on Terror

       Recommendations, Management Comments, and Our Response       7

Appendices

       A. Scope and Methodology                                     8
              Prior Coverage                                        9
       B. Statistical Sampling                                     10
       C. Supporting Documentation Received by Disbursing Center   11

Management Comments

       Department of the Navy Comments                             12
Introduction
Objectives
Our objective was to determine whether the Department of the Navy (Navy) disbursed
military payroll in support of the Global War on Terror (GWOT) in accordance with
established laws and regulations. Specifically, we determined whether the Navy
maintained adequate support for payments related to deployments to an active combat
zone (CZ). See Appendix A for a discussion of the scope and methodology.

Background
The Navy provides most of the nation’s worldwide rotational military presence and an
increasing portion of the required support for ground units in Operations Enduring
Freedom and Iraqi Freedom. The Navy employs more than 337,000 active duty,
composed of officers and enlisted members, and approximately 70,000 reserve personnel.

Disbursing Centers
The Commander, Navy Installations Command (CNIC) is responsible for providing
technical guidance to personnel and pay management areas and recommends policy
revisions. The Navy Pay and Personnel Support Center, a subordinate of CNIC, provides
pay and personnel support services to military personnel and their families. The Navy
Pay and Personnel Support Center is responsible for overseeing the day-to-day operations
and providing guidance to Personnel Support Detachments (PSD) and Customer Service
Desks at more than 80 locations worldwide. The PSDs maintain pay accounts and
personnel records for active duty Navy personnel, including those assigned to joint and
unified commands, ships, aviation squadrons, mobile units, and staffs within a prescribed
geographic area. Customer Service Desks are extensions of the PSDs, and personnel
assigned to them remain under PSD control. Each PSD and Customer Service Desk is
identified by a unique four-digit Accounting and Disbursing Station Number (ADSN).

Expeditionary Combat Readiness Centers
The Navy utilizes Expeditionary Combat Readiness Centers in active CZs to process pay,
personnel, and passenger transportation services for Navy personnel deployed overseas.
Expeditionary Combat Readiness Centers are not assigned their own ADSNs. Therefore,
they have the authority to process CZ entitlements using any ADSN.

Pay Systems
The disbursing centers and Expeditionary Combat Readiness Centers utilize either the
Navy Standard Integrated Personnel System or Defense Military Pay Office system to
process pay. The Navy Standard Integrated Personnel System is utilized for pay and
personnel functions, whereas the Defense Military Pay Office system is only utilized for
pay functions. Both the Navy Standard Integrated Personnel System and the Defense




                                            1
Military Pay Office system interface with the Defense Joint Military Pay System to
provide pay and personnel data to the Defense Finance and Accounting Service. The
Defense Finance and Accounting Service uses the data to produce and distribute
payments to military members.

CZ Entitlements
Military members are eligible to receive specific entitlements while serving in a combat
zone, which may include Hostile Fire Pay/Imminent Danger Pay (HFP/IDP), Combat
Zone Tax Exclusion (CZTE), and Family Separation Allowance (FSA). A member is
entitled to HFP/IDP for any month in which the member is on official duty in a
designated HFP/IDP area. The HFP/IDP entitlement is payable at a monthly rate of
$225, which is payable in the full amount without being prorated. The CZTE entitlement
allows military members to exclude all or a portion of pay and entitlements earned from
tax liabilities while serving in designated combat areas. The FSA entitlement is payable
to military members with dependents assigned away from their permanent duty station
continuously for more than 30 days. The FSA entitlement is paid at the rate of $250 per
month or prorated at $8.33 per day. From January 2007 through July 2008, the Navy
disbursed approximately $242 million in HFP/IDP and FSA entitlements in support of
GWOT.

Review of Internal Controls
We determined that a material internal control weakness for CNIC related to military
payroll processing existed as defined by DoD Instruction 5010.40, "Managers' Internal
Control (MIC) Program Procedures," January 4, 2006. CNIC did not have the following
internal controls for processing military payroll: procedures to identify the types of
documentation that disbursing center personnel should accept and maintain to support
CZ entitlements; formal training for Navy personnel processing military pay; or periodic
quality assurance reviews to ensure compliance with retention requirements.
Implementing Recommendations 1., 2., and 3. in the Finding will improve the disbursing
centers’ processing of military payroll. A copy of this report will be provided to the
senior official responsible for internal controls in CNIC.




                                           2
Finding. Supporting Documentation for
Entitlements in Support of the Global War
on Terror
Norfolk area disbursing center personnel did not maintain supporting documentation for
CZ entitlements according to record retention requirements. They also did not always
obtain adequate supporting documentation to substantiate the entitlements. We reviewed
the adequacy of the support for the CZ entitlements received by 338 Navy military
members. The disbursing centers provided complete support for the entitlements of
73 members. However, they only provided partial support for the entitlements of
107 members and no support for the entitlements of 158 members. Therefore, the Navy
could not substantiate whether at least 158 of 338 Navy military members received
proper CZ entitlements during deployments supporting GWOT. This could cause
financial hardship on Navy warfighters and their families. In addition, the lack of proper
supporting documentation adversely affects the Navy’s ability to detect fraud or improper
payments. CNIC should establish and implement standard operating procedures for
processing CZ entitlements and ensure that disbursing center personnel receive adequate
training. CNIC should also perform quality assurance reviews to ensure disbursing
center personnel comply with established retention requirements.

Criteria for Supporting Documentation
The Office of Management and Budget Circular No. A-123, “Management’s
Responsibility for Internal Control,” December 21, 2004, states that management is
responsible for establishing and maintaining internal controls to achieve the objectives of
effective and efficient operations and compliance with applicable laws and regulations.
Specifically, management puts control mechanisms and activities in place. Management
must clearly demonstrate its commitment to competence in the workplace by ensuring
that personnel possess and maintain the proper knowledge and skills to perform their
assigned duties and receive necessary training. In addition, transactions need to be
supported by documentation that is readily available for examination and review.
Management should also properly manage and maintain this documentation.

DoD 7000.14R, “DoD Financial Management Regulation,” (FMR) volume 5, chapter 21,
“Disbursing Office Records,” September 2007, 1 requires that original disbursing office
records and associated papers must be retained as Government property. The information
must be readily accessible to the disbursing officer or the designated settlement office for
6 years and 3 months. The requirement applies to both paper and electronic records
maintained as original supporting documentation.




1
  A review of the DoD FMR in effect when Navy members were originally receiving CZ entitlements
identified no differences with the current citations that would affect the results of the review.


                                                  3
In addition, DoD FMR, volume 7A, chapter 10, “Special Pay – Duty Subject to Hostile
Fire or Imminent Danger,” March 2008, 2 requires that the appropriate commander certify
that a member has met the conditions for the HFP/IDP entitlement each month. The
certification should include the name and social security number (SSN) of the member
entitled to the HFP/IDP, a short description of the deployment, and when and where it
occurred.

Retaining Supporting Documentation for Entitlements
Norfolk area disbursing centers did not maintain supporting documentation for
CZ entitlements disbursed in support of GWOT according to the DoD FMR. This
occurred because disbursing center personnel were not always aware of and trained on
the proper Federal and DoD regulations. Eight of the nine disbursing centers did not
follow the retention requirements from the DoD FMR for the following reasons:

       Representatives retained the supporting documentation on site for only 1 year.

       Representatives retained the supporting documentation for 2 years and then
        destroyed it.

       Representatives destroyed the supporting documentation because of hazardous
        health conditions caused by rodent infestation at the warehouse where the
        documents were stored.

       Representatives were unable to locate the supporting documentation for a
        disbursing center disestablished in April 2007.

       Representatives sent the supporting documentation to the squadron instead of
        retaining it on site.

The disbursing centers must retain the supporting documentation for the required
retention period (6 years and 3 months) to detect potential fraudulent and improper
payments and to substantiate the members’ receipt of proper CZ entitlements during
GWOT deployments.

Adequacy of Supporting Documentation
Norfolk area disbursing center personnel did not always obtain adequate supporting
documentation to substantiate entitlements. 3 This occurred because they did not have
standard operating procedures that implemented Federal and DoD regulations and
defined adequate supporting documentation. In addition, several disbursing center
personnel stated that they never received formal training to determine whether the
documentation would be adequate to support starting or stopping CZ entitlements.


2
  A review of the DoD FMR in effect when Navy members were originally receiving CZ entitlements
identified no differences with the current citations that would affect the results of the review.
3
  See Appendix C for a summary of supporting documentation provided to us by each disbursing center.


                                                   4
Navy Pay and Personnel Support Center personnel stated that the Navy did not have
standard operating procedures in place because guidance already exists in the DoD FMR.
However, the DoD FMR provides limited guidance on the documentation required to
support the HFP/IDP entitlement. The DoD FMR also does not provide any guidance on
the documentation necessary to support the FSA and CZTE entitlements. As a result,
Norfolk area disbursing center personnel occasionally accepted inadequate forms of
supporting documentation to start and stop CZ entitlements. Adequate supporting
documentation should substantiate the entitlements. Therefore, CNIC should implement
standard operating procedures that provide a consistent approach for disbursing center
personnel to follow. In addition, disbursing center personnel should receive formal
training for processing CZ entitlements to ensure the warfighters accurately receive
entitlements. By implementing these control mechanisms, the Navy can prevent and
detect fraudulent and inaccurate payments of CZ entitlements.

Complete Supporting Documentation
Norfolk area disbursing center personnel provided complete supporting documentation
for the CZ entitlements received by 73 of 338 Navy members. We considered a
member’s CZ entitlements completely supported when the disbursing center personnel
provided adequate supporting documentation to start and stop the member’s
CZ entitlements. For example, we accepted signed Navy memoranda from the
commanding officer that indicated when specific entitlements should start or stop. If the
memorandum was for multiple members, the commanding officer would attach a roster
of the members eligible to receive specific entitlements, with names, SSNs, deployment
time frames, and deployment locations.

We determined that the 73 Navy military members generally received the HFP/IDP, FSA,
and CZTE entitlements accurately. However, we identified 16 instances when these
entitlements did not start or stop in a timely manner. This occurred because the
commanding officer did not send supporting documentation to the disbursing center in a
timely manner. In addition, the disbursing center personnel did not process the
entitlements in a timely manner. When disbursing center personnel stop a member’s
entitlement late, the member becomes indebted to the Government. Once the error is
identified, the member’s monthly income will be reduced by the amount of the
indebtedness. For example, disbursing center personnel did not stop one member’s
CZ entitlements until 6 months after returning from deployment. This member typically
received a monthly income of approximately $6,600. However, when the error was
identified, the member’s monthly income was reduced to approximately $3,800 for one
month and approximately $4,400 for another month to compensate for the overpayment.
This reduction in income may have resulted in financial hardship for this member and his
family.

Partial Supporting Documentation
Norfolk area disbursing center personnel provided partial supporting documentation for
the CZ entitlements of 107 of 338 Navy members. We considered a member’s
CZ entitlements partially supported when disbursing center personnel provided adequate
supporting documentation for one or more, but not all, of the CZ entitlements. During


                                            5
certain instances, one disbursing center started a member’s CZ entitlements and another
disbursing center stopped the same member’s CZ entitlements. In such a case, if the
disbursing center that started the CZ entitlements provided complete support and the
other disbursing center that stopped the CZ entitlements provided no support, we
considered the member’s entitlements partially supported.

No Supporting Documentation
Norfolk area disbursing center personnel provided no supporting documentation for the
CZ entitlements of 158 of 338 Navy members. We considered a member’s
CZ entitlements to be unsupported when the disbursing center personnel did not provide
any supporting documentation or only provided inadequate supporting documentation for
the CZ entitlements. For example, representatives from several disbursing centers
provided travel orders as the support to start or stop the CZ entitlements. However, we
accepted the travel orders only when approved travel vouchers accompanied them, which
proved that the member traveled to the particular country during the specified time. We
also accepted travel orders when an official signed and stamped the orders to identify that
the member arrived at the deployment location. In addition, the representatives at several
disbursing centers accepted e-mails from Navy personnel below the commander level as
supporting documentation. They also accepted other unsigned or incomplete documents,
such as FSA forms that did not identify the country of deployment or the dates of
entitlement.

A representative from one disbursing center stated she did not request additional
documentation when a person came to the office to request that an entitlement stop. The
office personnel believed that seeing the member in person was enough support to stop an
entitlement. We agree that the disbursing centers should stop entitlements once a
member returns from a deployment. However, without adequate supporting
documentation, there is no assurance that the entitlement stopped at the proper time. For
example, members may have returned from their deployment at an earlier date and were
unaware that they were still receiving the CZ entitlements. Therefore, commanding
officers should send official correspondence that certifies the dates of a member’s
deployment and applicable entitlements to substantiate the member’s pay.

Conclusion
Norfolk area disbursing center personnel were unable to provide any supporting
documentation for the CZ entitlements of at least 158 of 338 Navy military members.
Therefore, the Navy had no assurance that these members received accurate payments of
CZ entitlements during deployments supporting the Global War on Terror. The lack of
proper supporting documentation adversely affects the Navy’s ability to prevent and
detect fraud. When disbursing center personnel do not obtain and maintain adequate
supporting documentation, there is also a potential for inaccurate payments and financial
hardship on Navy warfighters. For example, the Defense Finance and Accounting
Service identified that erroneous CZ entitlement payments processed during
January 2007 through July 2008 by Norfolk area disbursing center personnel resulted in
Navy members being approximately $900,000 in debt. This resulted in a reduction of
Navy members’ monthly income to repay the debt.


                                             6
Recommendations, Management Comments, and Our
Response
1. Establish and implement standard operating procedures for the types of
documentation that disbursing center personnel should accept and maintain to
support combat zone entitlements.

Department of the Navy Comments
The Assistant Secretary of the Navy, Financial Management and Comptroller
(ASN[FM&C]) agreed and stated that the Navy Pay and Personnel Support Center has
drafted an instruction that establishes standard operating procedures for proper
documentation of Imminent Danger Pay, Hostile Fire Pay, Combat Zone Tax Exclusion,
Hardship Duty Pay-Location, and Family Separation Allowance. The Director, Navy Pay
and Personnel Support Center is expected to sign the instruction by April 30, 2009, and to
disseminate it to all detachments.

2. Provide formal training on a regular basis to Navy personnel processing military
pay to ensure that standard operating procedures are consistently and properly
implemented.

Department of the Navy Comments
ASN(FM&C) agreed and stated that the Navy Pay and Personnel Support Center has
previously incorporated this requirement in its standard quality assurance and training
requirements. The Navy Pay and Personnel Support Center is also considering
standardized professional rate training for pay and personnel entitlements for all
detachments.

3. Perform periodic quality assurance reviews to ensure that disbursing center
personnel comply with established record retention requirements in DoD 7000.14-R,
“DoD Financial Management Regulation,” volume 5, chapter 21, “Disbursing Office
Records,” September 2007.

Department of the Navy Comments
ASN(FM&C) agreed and stated that Navy Pay and Personnel Support Center
Instruction 7250.1, March 17, 2009, “Retention of Disbursing Office Records,” outlines
the requirements for Disbursing Officer records retention. The instruction has been fully
implemented and disseminated to all subordinate detachments. In addition, the quality
assurance reviews of each Personnel Support Detachment, which are conducted at least
every 18 months, now include verification of this supporting documentation.

Our Response
ASN(FM&C) comments are responsive and the actions meet the intent of the
recommendations. No further comments are required.




                                            7
Appendix A. Scope and Methodology
We conducted this performance audit from May 2008 to February 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To evaluate the controls over Navy military payroll disbursements, we reviewed the
Navy’s processing of pay transactions and the retention of supporting documentation for
entitlements made to military members deployed to an active CZ from January 2007
through July 2008. As of July 2008, the Defense Finance and Accounting Service
provided a universe of 49,852 CZTE entitlements, processed by Norfolk, Virginia,
disbursing centers for deployments to Southwest Asia. 1 These entitlements had a value
of approximately $66 million. We randomly selected a sample of 401 Navy personnel
(386 unique SSNs), 2 composed of officers, enlisted members, and warrant officers, to test
at the Norfolk area disbursing centers. Of the 386 unique SSNs, we identified
48 members whose deployments were outside the scope of this audit. This occurred
because the servicing disbursing center was outside the Norfolk area or we did not
request supporting documentation from the Norfolk area servicing disbursing center. We
did not request supporting documentation from a disbursing center for 6 of the 48
because we did not have sufficient information prior to our site visit to Norfolk, Virginia,
to determine the responsible disbursing center. We analyzed the pay data of the
remaining 338 SSNs to determine whether the Norfolk area disbursing center personnel
maintained supporting documentation to substantiate HFP/IDP, CZTE, and FSA
entitlements. See Appendix B for statistical sampling information.

To accomplish the audit objective:

         We contacted the Office of the Under Secretary of Defense (Comptroller)/DoD
          Chief Financial Officer to determine its involvement in the Navy military pay
          process.

         We met with Defense Finance and Accounting Service representatives to obtain
          the universe of military members receiving CZ entitlements while deployed to a
          Southwest Asia region in support of GWOT from January 2007 through
          July 2008. We obtained and reviewed pay documentation for 386 unique SSNs
          and identified entitlements paid to military members during this time frame.



1
  We considered the following locations as Southwest Asia for the purpose of this audit: Afghanistan,
Arabian Sea, Bahrain, Gulf of Aden, Gulf of Oman, Iraq, Jordan, Kuwait, Oman, Pakistan, Persian Gulf,
Qatar, Red Sea, Saudi Arabia, United Arab Emirates, and Yemen.
2
  This difference is a result of multiple disbursing centers processing CZ entitlements for the same
individual.


                                                   8
          Specifically, we reviewed Leave and Earnings Statements and Master Military
          Pay Accounts 3 for military members who received CZ entitlements.

         We met with Navy representatives to obtain supporting documentation for
          military members who received CZ entitlements. In addition, we interviewed
          responsible officials and observed the pay processing for these entitlements.

         We compared supporting documentation to pay data to determine whether the
          Norfolk area disbursing center personnel provided adequate support for the
          CZ entitlements.

Use of Computer-Processed Data
To perform this audit, we used data that originated in the Defense Joint Military Pay
System, Navy Standard Integrated Personnel System, and Defense Military Pay Office
system. We determined data reliability by validating the SSNs in the audit universe and
comparing pay data to the applicable supporting documentation. This assessment
indicated that the data were sufficiently reliable for the purpose of our review.

Use of Technical Assistance
An Operations Research Analyst from the Quantitative Methods and Analysis Division,
DoD Office of Inspector General assisted with project sample selection. The Data
Mining Directorate, DoD Office of Inspector General coordinated with the Defense
Manpower Data Center to verify the validity of SSNs in the audit universe.

Prior Coverage
No prior coverage has been conducted on controls over Department of the Navy military
payroll disbursed in support of the GWOT during the last 5 years.




3
  The Master Military Pay Account contains current and historical data pertaining to a member’s pay. All
leave and pay activity for active duty members is recorded in this file. The individual accounts contain
current entitlements, deductions, status information, and 11 months of history.


                                                    9
Appendix B. Statistical Sampling
Population
The universe consisted of 49,852 deployments to Southwest Asia of Navy members
serviced by Norfolk area disbursing centers and entitled to CZTE during the January
2007 through July 2008 time frame.

Measures
For the payments sampled, we used an attribute measure to determine whether the Navy
maintained adequate support for payments related to deployments to an active CZ.

Parameters
We used a 90-percent confidence interval.

Sample Plan
We used a stratified attribute sample design. We stratified the universe into three
categories by disbursing center: officer, enlisted member, and warrant officer. After the
universe was stratified, we used the random number generator in Excel to select a sample
of 401 Navy personnel (386 unique SSNs) * to test at the Norfolk area disbursing centers.

Analysis and Interpretation
The population data contained items that were included multiple times across multiple
disbursing centers. This does not give each item the same chance of being selected and
introduces conditional probabilities. Also, there were a significant number of items in the
population that were outside the scope of the audit. As a result, we decided not to project
the results of the sample to the population.




*
  This difference is a result of multiple disbursing centers processing CZ entitlements for the same
individual.


                                                     10
Appendix C. Supporting Documentation
Received by Disbursing Center
The number of Navy members reviewed in the table below does not correspond to the
number discussed in the Finding section of the report. In some cases, multiple disbursing
centers processed entitlements for the same member. Therefore, the “complete” and “no
supporting documentation” totals are higher than the original count discussed in the
Finding section of the report. However, instances occurred where one disbursing center
started a member’s CZ entitlements and another disbursing center stopped the same
member’s CZ entitlements. In such a case, if the disbursing center that started the
CZ entitlements provided complete support and the other disbursing center that stopped
the CZ entitlements provided no support, we considered the member’s entitlements
partially supported. As a result, the total for “partial supporting documentation” by
disbursing center is less than the number for Navy members discussed in the Finding
section of the report.

The following table displays the number of Navy members receiving CZ entitlements
reviewed at each disbursing center, for which we received complete, partial, and no
supporting documentation.

               Supporting Documentation Received by Disbursing Center

                                        Received Supporting Documentation
                     Navy
  Disbursing
                   Members          Complete              Partial            None
    Center
                   Reviewed
    0097               7                 0                    0                 7
    0098              28                 6                   21                 1
    0637             109                 0                   26                83
    0647               5                 0                    0                 5
    3502              24                 4                    6                14
    3503              29                14                    6                 9
    3506              66                16                   22                28
    3508              72                 1                   20                51
    3515              35                35                    0                 0
   Total             375                76                  101               198




                                             11
Department of the Navy Comments




                  Click to add JPEG file




                                 12
Click to add JPEG file




               13
14
